  AUDIT OF THE DRUG ENFORCEMENT

ADMINISTRATION’S ADOPTIVE SEIZURE 

  PROCESS AND STATUS OF RELATED 

   EQUITABLE SHARING REQUESTS


         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


            Audit Report 12-40

             September 2012

                        AUDIT OF THE

            DRUG ENFORCEMENT ADMINISTRATION’S

           ADOPTIVE SEIZURE PROCESS AND STATUS OF

            RELATED EQUITABLE SHARING REQUESTS



                             EXECUTIVE SUMMARY


       During law enforcement operations, state and local law enforcement
agencies often seize assets and proceeds from assets linked to criminal
activity. The purpose of the seizures typically is to ensure that criminal
organizations and individuals do not benefit from illegal activities. State and
local law enforcement agencies may seek to have such assets forfeited
under state law or, alternatively, agencies may transfer the seized assets to
the Drug Enforcement Administration (DEA) or another component of the
Department of Justice (DOJ or the Department) for forfeiture under federal
law through the Department’s Asset Forfeiture Program. Transferred
seizures are referred to as “adoptive” seizures because the federal agency
adopts the seizures made by state and local law enforcement agencies. 1

      The DEA Agents Manual states that, in reviewing an adoption request
from state or local law enforcement agencies, the DEA should take into
consideration whether:

   •	 state law authorizes the transfer of the asset(s) to the federal 

      government for forfeiture,


   •	 state law or procedures are inadequate or forfeiture experience is
      lacking in the state system,

   •	 the appropriate state or local prosecuting official has reviewed the case
      and declined to initiate forfeiture proceedings,

   •	 a "significant amount" (that is, an amount sufficient to warrant federal
      prosecution) of drugs is involved, and

   •	 the government is likely to be able to satisfy its requisite burden of
      proof that the asset is subject to forfeiture.



       1
        Seizures made through the joint efforts of federal, state, local, and foreign law
enforcement agencies are referred to as “joint” seizures.



                                              i
       Federal law authorizes the Department to share with state and local
law enforcement agencies the property and proceeds from adoptive and joint
seizures forfeited under federal law. This process is called equitable sharing.
Any property or proceeds transferred to a state or local law enforcement
agency must have a reasonable relationship to the degree of participation
the agency had in the law enforcement effort that led to the seizure.
Equitable sharing of seized property encourages cooperation among federal,
state, and local law enforcement agencies. To receive an equitable share of
seized property, a participating law enforcement agency must submit an
equitable sharing request form to the federal agency processing the asset for
forfeiture. Seized assets and equitable sharing requests are tracked in the
Department’s Consolidated Assets Tracking System (CATS).

      The objective of our audit was to assess the design and
implementation of the DEA’s adoptive seizure process. We selected the DEA
Atlanta Division for testing because, within the DEA, the Atlanta Division
processed the largest dollar value of adoptive seizures and testing at the
Atlanta Division enabled us to make efficient use of time and cost resources.

Results in Brief

      We found that the DEA generally complied with its internal controls for
adoptive seizures that we tested. The DEA’s adoptive seizure process was
designed to ensure compliance with laws and regulations except that the
process did not require the DEA to make and preserve records of adoption
requests that it denied. 2 Without these records, we could not assess
whether the DEA made the appropriate decisions pertaining to denied
adoptive seizure requests. We also found that the form published by the
DOJ Criminal Division and submitted to the DEA by state and local law
enforcement agencies to request a federal adoption should be revised. The
revised form should provide DEA managers who approve adoption requests
with more information about whether the state and local law enforcement
agencies followed state forfeiture law, if required, before seeking a federal
adoption. 3

     Nationwide, 9,035 equitable sharing requests estimated at
$318.8 million were still in a “pending” (not paid) status for more than

       2
         44 U.S.C. § 3101 (2012), requires agencies to make and preserve records
containing adequate and proper documentation of its transactions and decisions.
       3
         Some states have laws requiring state and local law enforcement to turn over
seized assets to a state or local prosecutor to decide whether to pursue forfeiture under
state law.



                                              ii
4 years after the assets were seized. 4 At the DEA Atlanta Division, we
examined a sample of these pending requests and determined that the most
common reasons for the pending status were that the requesting law
enforcement agency was not in compliance with the Asset Forfeiture
Program or the requesting agency had been suspended from receiving
equitable sharing funds. However, some of these equitable sharing requests
were no longer pending, but the CATS records had not been updated.

      As a result of our audit, we make three recommendations to improve
the DEA’s adoptive seizure process and the Department’s Asset Forfeiture
Program. First, we recommend that the DEA implement procedures to
create and maintain records pertaining to adoption requests that were
denied and the reasons for the denial. Those records could consist of emails
containing details about the seizures and the reasons the DEA denied the
adoption requests.

       Second, we recommend that the DEA coordinate with the Criminal
Division, Asset Forfeiture and Money Laundering Section, to modify the
adoption request form to include questions pertaining to whether state and
local law enforcement agencies followed state forfeiture laws, if applicable,
before seeking a federal adoption.

      Finally, we recommend that the DEA coordinate with Justice
Management Division’s Asset Forfeiture Management Staff regarding the
need for a system to: (1) identify equitable sharing requests pending for
more than 6 months after forfeiture and disposal actions are completed, and
(2) ensure that the appropriate DOJ component updates CATS as necessary
for each pending request.




       4
         According to CATS, 6,453 of the 9,035 pending equitable sharing requests (or an
estimated $229,085,650 of $318,804,219) pertained to assets that had been forfeited to
the United States Government. The OIG analyzed these requests because they represent
the oldest pending requests in our data sample. We do not intend to imply that all requests
pending for less than 4 years have been or will necessarily be handled in a timely manner.

                                            iii
                                 TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1

  Background .....................................................................................1

  DOJ Asset Forfeiture Program ............................................................1

     Types of Seizures ........................................................................3

     Types of Forfeitures.....................................................................4

     Equitable Sharing ........................................................................6

     Disbursement of Equitable Shares .................................................9


FINDINGS AND RECOMMENDATIONS.............................................. 12

  The DEA’s Adoptive Seizures Process ................................................ 12

  The DEA’s Adoptive Seizures Process Testing ..................................... 15

  Pending Equitable Sharing Requests ................................................. 18

  Conclusion..................................................................................... 23

  Recommendations .......................................................................... 24


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS...... 25


STATEMENT ON INTERNAL CONTROLS............................................ 26


APPENDIX I - AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY ...... 27


APPENDIX II - REQUEST FOR ADOPTION OF STATE OR

   LOCAL SEIZURE FORM ............................................................... 31


APPENDIX III - THE DRUG ENFORCEMENT ADMINISTRATION’S

   RESPONSE TO THE DRAFT AUDIT REPORT ................................. 33


APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL

   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO

   CLOSE THE REPORT ................................................................... 35

                             INTRODUCTION


Background

       State and local law enforcement agencies seize assets and proceeds
from criminal activity during their enforcement operations. The purpose of
the seizures typically is to ensure that criminal organizations and individuals
do not benefit from illegal activities. State and local law enforcement
agencies may have the seized assets forfeited under state law or may
transfer the seized assets to a federal agency, such as the Drug Enforcement
Administration (DEA), for forfeiture under federal law through the
Department of Justice (DOJ or Department) Asset Forfeiture Program. The
Asset Forfeiture Program helps the DEA strengthen its partnerships with
other law enforcement agencies. Seizures made by state and local law
enforcement agencies that are transferred to a federal agency are referred to
as “adoptive” seizures because the federal agency adopts the seizures for
forfeiture through the Asset Forfeiture Program. Seizures made through the
joint efforts of federal, state, and local law enforcement agencies are referred
to as “joint” seizures.

DOJ Asset Forfeiture Program

       DOJ’s Criminal Division and the Justice Management Division (JMD)
manage the Asset Forfeiture Program. Specifically, the Criminal Division’s
Asset Forfeiture and Money Laundering Section (AFMLS) monitors state and
local law enforcement agencies’ compliance with equitable sharing program
requirements, coordinates international forfeitures and sharing, develops
training seminars for all levels of government, and provides legal support to
the U.S. Attorney’s Office (USAO).

      JMD’s Asset Forfeiture Management Staff (AFMS) manages the DOJ’s
Consolidated Assets Tracking System (CATS) database. Seized assets
adopted by the DEA are turned over to the U.S. Marshals Service (USMS) and
deposited in the Seized Asset Deposit Fund, which is a holding account for
seized cash pending resolution of forfeiture proceedings. After the DEA or
the USAO completes forfeiture actions and the DEA or the USMS disposes of
the assets, the proceeds are transferred to the Assets Forfeiture Fund. After
the DEA, USAO, or AFMLS approve the equitable sharing request, the USMS
disburses the equitable sharing funds to the federal, state, and local law
enforcement agencies.

      AFMS also administers the Seized Asset Deposit Fund and the Assets
Forfeiture Fund. Proceeds from forfeited assets are to be used for law

                                       1

enforcement purposes and to administer the Asset Forfeiture Program.
Seized assets processed through the program are tracked in CATS. The
Guide to Equitable Sharing for State and Local Law Enforcement Agencies
provides guidance and details about the Asset Forfeiture Program such as
instructions on how to participate in the program, minimum value thresholds
for adoptive assets, how to apply for an equitable share, how equitable
sharing amounts are determined, accounting for equitable sharing receipts,
reporting and audit requirements, and consequences for not complying with
program requirements.

       According to the DOJ Criminal Division’s Guide to Equitable Sharing for
State and Local Law Enforcement Agencies, these five federal agencies that
participate in the DOJ Asset Forfeiture Program may directly adopt seizures
made by state and local law enforcement agencies: 1

   •   Bureau of Alcohol, Tobacco, Firearms and Explosives;
   •   Drug Enforcement Administration;
   •   Federal Bureau of Investigation;
   •   U.S. Postal Inspection Service; and
   •   U.S. Attorney’s Offices.

       After an asset is seized, these agencies may process the asset for
forfeiture under federal law and share the proceeds with the law enforcement
agencies that participated in the seizure. 2 An overview of the Asset
Forfeiture Program is presented in Exhibit 1.




       1
          Other federal agencies participate in the DOJ Asset Forfeiture Program as part of
joint seizure operations, but they do not directly adopt seized assets. The DOJ Criminal
Division’s AFMLS manages the equitable sharing of assets, coordinates international
forfeitures and sharing, develops training seminars for all levels of government, provides
legal support to the USAO, and monitors state and local law enforcement agencies’
compliance with equitable sharing program requirements. The U.S. Department of the
Treasury has a separate asset forfeiture program that processes adoptive seizures. Agencies
that participate in the Treasury Asset Forfeiture Program include the Internal Revenue
Service, U.S. Immigration and Customs Enforcement, U.S. Customs and Border Protection,
U.S. Secret Service, and U.S. Coast Guard.
       2
           Processing an asset for forfeiture and equitable sharing consists of transferring the
asset to the USMS for safekeeping, notifying the owners or other interested parties of the
government’s intent to proceed with forfeiture, taking the legal actions necessary to have
title to the property transferred to the government, and reviewing and approving requests
from law enforcement agencies for a share of the proceeds from the forfeited asset.

                                                2

                              Exhibit 1: Summary of
                           the Asset Forfeiture Program

                              PROPERTY (ASSET)


                                     SEIZURE

                Adoptive                                     Joint



                   REQUEST FOR EQUITABLE SHARES


                                  FORFEITURE

             Administrative                       Judicial (Civil and Criminal)


                DISBURSEMENT OF EQUITABLE SHARES
   State and Local (80% Maximum)                        Federal (20%)
Source: Office of the Inspector General (OIG) summary of the Guide to Equitable Sharing
for State and Local Law Enforcement Agencies

Types of Seizures

      The Comprehensive Drug Abuse Prevention and Control Act of 1970
authorizes federal law enforcement to seize property, including money and
vehicles, alleged to have facilitated illegal drug transactions or the proceeds
of such transactions. Federal agencies process seized assets through the
Asset Forfeiture Program as either adoptive seizures or joint investigation
seizures.

       According to the CATS data, for the period of October 1, 2000, through
September 30, 2011, the DEA and other federal agencies processed over
150,644 seized assets valued at about $9.2 billion of which $5.5 billion
(60 percent) originated from seizures processed by the DEA and $3.7 billion
(40 percent) originated from seizures processed by other federal agencies. 3
Exhibit 2 shows the value of adoptive and joint seized assets processed each
fiscal year (FY) by the DEA and other federal agencies.


       3
         During this 11-year period, there was an additional $522 million in DEA seizures
that had no equitable sharing requests, but we did not include these in our analysis because
those seizures were beyond the scope of our audit. The scope of our audit only included
seizures with equitable sharing requests.

                                             3

  Exhibit 2: Value of Assets Seized During Fiscal Year 2001 Through
                           Fiscal Year 2011 4


                                               $1,600


                                               $1,400
  Current Asset Value in Millions of Dollars




                                               $1,200


                                               $1,000


                                                $800


                                                $600


                                                $400


                                                $200


                                                    $0
                                                          2001   2002    2003    2004    2005     2006   2007    2008   2009    2010   2011

                                                    DEA Adoptive Seizures                         DEA Joint Seizures
                                                    Other Federal Agencies' Joint Seizures        Other Federal Agencies' Adoptive Seizures
Source: DOJ’s Consolidated Assets Tracking System


Types of Forfeitures

       The DOJ Criminal Division defines forfeiture as “the taking of property
derived from a crime, involved in a crime, or that which makes a crime easier
to commit or harder to detect without compensating the owner.” 5 In a
forfeiture proceeding, if the government is successful, ownership of the asset
is transferred to the government. Property (assets) can be forfeited through
the Asset Forfeiture Program under administrative or judicial (civil or
criminal) forfeiture proceedings.


                                                4
        FY 2001 through FY 2010 data is from the CATS records as of October 4, 2011, and
FY 2011 data is from the CATS records as of October 25, 2011.
                                                5
        Guide to Equitable Sharing for State and Local Law Enforcement Agencies, April
2009, page 8.

                                                                                             4

       In an administrative forfeiture action, the federal law enforcement
agency must, within 60 days after the date of seizure, notify the owner or
other interested parties of the government’s intent to proceed with the
forfeiture action. 6 The DEA refers to this as a Notice of Seizure. Interested
parties have until the date specified in the notice to contest the forfeiture. 7 If
the forfeiture is not contested, the DEA issues a Declaration of Forfeiture and
ownership of the property is transferred to the government. If an interested
party contests the forfeiture by filing a claim against the property,
administrative forfeiture proceedings are terminated, and the government
has 90 days to proceed with a civil or criminal forfeiture action or return the
property and initiate forfeiture action at a later date.

       During a federal civil forfeiture proceeding, the court hears argument
and evidence from both the government and all interested parties on the
forfeiture allegations. The court will determine whether the government met
its burden to establish that the property is subject to forfeiture. 8 If the
government meets its burden of proof and no interested parties are
successful in establishing an innocent owner defense, the court issues a Final
Judgment of Forfeiture order and ownership of the property passes to the
government.

       Unlike civil forfeiture in which the proceedings are against the property
(in rem), criminal forfeiture proceedings are against the person
(in personam). Under criminal forfeiture proceedings, the forfeiture is part of
the trial process that targets property named in the indictment. Proceedings
to determine whether the property will be forfeited take place after, and only
if, the defendant is convicted. As shown in Exhibit 3, 70 percent of all seized


       6
         If the asset was seized by a state or local law enforcement agency and adopted by
the government for processing under federal forfeiture law, the adopting federal law
enforcement agency has 90 days to notify the owner or other interested parties of its intent
to proceed with forfeiture.
       7
          According to 18 U.S.C. § 983(a)(2)(B), “the deadline may not be earlier than
35 days after the date the letter is mailed to the owner, except that if that letter is not
received, then a claim may be filed not later than 30 days after the date of final publication
of notice of seizure.”
       8
           As a protection to innocent owners, a person’s interest in the property cannot be
forfeited if the person can prove the elements of the “innocent owner defense” described in
18 U.S.C. § 983(d) (2011). That statute defines an “innocent owner” as “an owner who
(i) did not know of the conduct giving rise to forfeiture; or (ii) upon learning of the conduct
giving rise to the forfeiture, did all that reasonably could be expected under the
circumstances to terminate such use of the property.”

                                               5

assets and nearly half of the asset values are processed as administrative
forfeitures.

                 Exhibit 3: FYs 2001 Through 2011 Seized Assets
                              by Type of Forfeiture 9
              Number of Assets                         Asset Value (in millions)
             by Type of Forfeiture                      by Type of Forfeiture
            Administrative   Civil   Criminal          Administrative   Civil   Criminal



                    21,730
                     14%                                     $2,150
                                                              23%
               24,242
                                                                           $4,372
                16%             104,528                                     48%
                                 70%
                                                               $2,696
                                                                29%




     Source: DOJ’s Consolidated Assets Tracking System

Equitable Sharing

       Federal law authorizes the Attorney General to share with state and
local law enforcement agencies the property and proceeds from adoptive and
joint seizures. Any property or proceeds transferred to a state or local law
enforcement agency must bear a reasonable relationship to the degree of
participation the state or local law enforcement had in the law enforcement
effort that led to the seizure. This “equitable sharing” of seized property
helps the DEA achieve its mission by encouraging cooperation among federal,
state, and local law enforcement agencies.

       The DOJ’s Criminal Division, AFMLS monitors state and local law
enforcement agencies’ compliance with equitable sharing participation
requirements, coordinates international forfeitures and sharing, develops
training seminars for all levels of government, and provides legal support to


      9
         Our analysis includes adoptive and joint seizures processed by the DEA and other
federal agencies. Our analysis does not include 144 assets valued at $1.2 million because
the DEA terminated forfeiture proceedings on those assets.



                                                6

the USAO. The USMS disburses the equitable sharing payments and is the
custodian for seized and forfeited assets.

       To receive an equitable share of adoptive and joint seizures, the
requesting law enforcement agencies must submit an Application for Transfer
of Federally Forfeited Property (Form DAG-71) to the federal agency
processing the asset for forfeiture. 10 If the value of the seized assets in a
forfeiture proceeding is less than $1 million, equitable sharing requests are
reviewed and may be approved by the investigative agency if the proceeding
is administrative, or by the USAO if the proceeding is judicial. If the value of
the assets is greater than $1 million, the Deputy Attorney General must
review and approve equitable sharing requests, although the Deputy Attorney
General has delegated this authority to the Criminal Division in situations
where the investigative agency, the USAO, and the Criminal Division’s AFMLS
agree about the appropriate disposition of the request.

      Equitable sharing cannot occur until forfeiture actions have been
completed, the asset has been disposed of, and the sharing of the asset has
been approved by the appropriate federal office. The length of time between
the date of seizure and the date that equitable sharing funds are disbursed
depends on the type of forfeiture. Exhibit 4 shows the average length of time
for completed equitable sharing requests and the percentage completed
within 1 to 4 years.

                 Exhibit 4: Completed Equitable Sharing Requests
             Type of           Average          Percent Completed Within
                                Time to        1       2       3       4
            Forfeiture
                               Complete       Year   Years   Years   Years
        Administrative          0.7 years     72%     94%     98%     99%
        Civil Judicial          1.8 years     15%     58%     77%     87%
        Criminal Judicial       1.9 years     18%     55%     77%     87%
        All types               0.9 years     58%     85%     93%     96%
       Source: OIG analysis of the DOJ’s Consolidated Assets Tracking System data



       10
           A request for adoption is different from a request for equitable sharing. A Request
for Adoption of State or Local Seizure form (see Appendix II) is used by a state or local law
enforcement agency to request that a federal agency, such as the DEA, “adopt” the asset for
forfeiture under federal law. There is one adoption request form for each adoptive asset.
The form is not used for joint seizures. A request for equitable sharing, Application for
Transfer of Federally Forfeited Property, Form DAG-71, is used to request a share of the
proceeds from adoptive and joint seizures forfeited under federal law. There can be multiple
equitable sharing requests from various law enforcement agencies for a share of each
adopted or joint seizure.



                                              7

       Exhibit 5 shows numbers of equitable sharing requests that were still
pending as of September 30, 2011, and the numbers of years since the
assets were seized. The requests are associated with assets seized during
fiscal years 2001 through 2011.11

                            Exhibit 5: Number of Pending Equitable Sharing Requests

                                 as of September 30, 2011, and Number of Years

                                            Since the Date of Seizure


                             35,000

                             30,000

                             25,000
   Nuber of Requests with
    Pending Distributions




                             20,000

                             15,000

                             10,000

                              5,000

                                 -
                                        0-1    1-2   2-3   3-4   4-5   5-6   6-7   7-8   8-9 9-10 10-11
                                       year   years years years years years years years years years years
                                                       Number of Years Since the Date of Seizure

                             From DEA Joint Seizures                         From DEA Adoptive Seizures
                             From Other Federal Agency Joint Seizures        From Other Federal Agency Adoptive Seizures

Source: DOJ’s Consolidated Assets Tracking System




                        11
          There may be pending equitable sharing requests for assets that were seized prior
to FY 2001, but those seizures were beyond the scope of our audit. The pending equitable
sharing requests shown in the exhibit are for assets seized during FY 2001 through 2011.

                                                                        8

Disbursement of Equitable Shares

      Under the Asset Forfeiture Program, up to 80 percent of the net
proceeds from the adopted forfeited assets are disbursed to the participating
law enforcement agencies and the federal government keeps the remaining
20 percent. 12

       From FY 2001 through FY 2011, federal agencies transferred almost
$4.2 billion in equitable sharing money and other assets to 7,270 state and
local law enforcement agencies. Over $3 billion of this originated from the
DEA’s joint and adoptive seizures. For both the DEA and other federal
agencies, equitable sharing disbursements more than doubled from FY 2002
to FY 2011. Exhibit 6 shows the disbursements to state and local law
enforcement agencies from FY 2001 through FY 2011.




       12
          Under 21 U.S.C. § 881 (2011), the Attorney General is directed to determine the
value of an agency’s participation in the effort that led to the forfeiture. The Attorney
General’s Guidelines on Seized and Forfeited Property, July 1990, Amended 2005, require
that 20 percent of the net proceeds be allocated to the United States. Based on this
requirement, state and local agencies may be eligible for up to 80 percent of the total net
proceeds realized from the disposition of forfeited property. The net proceeds, which is the
amount available for equitable sharing, is the gross amount of proceeds minus expenses,
such as payment of liens on the property, money paid to victims, and federal case-related
expenses. See the Guide to Equitable Sharing for State and Local Law Enforcement Agencies
for more information on expenses used in calculating net proceeds.



                                             9

 Exhibit 6: Value of Equitable Sharing Disbursements from Adoptive
            and Joint Seizures Processed by the DEA and
                      Other Federal Agencies 13

                                                   $700
 EQ Sharing Disbursements in Millions of Dollars




                                                   $600

                                                   $500

                                                   $400

                                                   $300

                                                   $200

                                                   $100

                                                     $0
                                                             2001    2002   2003    2004    2005   2006    2007    2008   2009   2010    2011

                                                        From DEA Joint Seizures                        From DEA Adoptive Seizures
                                                        From Other Fed Agencies Joint Seizures         From Other Fed Agencies Adoptive Seizures

Source: DOJ’s Consolidated Assets Tracking System

      The objective of this audit was to assess the design and
implementation of the DEA’s adoptive seizure process. We focused our audit
on the DEA Atlanta Division because, within the DEA, it processed the largest
number and dollar value of adoptive seizures. The DEA Atlanta Division has
geographic responsibility for Georgia, North Carolina, South Carolina, and
Tennessee.



                                                   13
           The disbursements shown in the chart are all disbursements in a given year,
whether derived from assets seized in the current year or prior years. Disbursements
include the value of all money and other assets, such as vehicles, transferred to law
enforcement agencies. Equitable sharing disbursements are less than the value of the seized
assets because: (1) there can be a lag time of several years between the seizure and the
disbursement of proceeds from the forfeiture, and some assets depreciate over time;
(2) disposal costs may reduce the amount of proceeds available for distribution; or
(3) forfeiture proceedings may have been terminated and the asset returned to the owner.
Also, pursuant to the Attorney General’s guidelines discussed above, no more than
80 percent of the net proceeds from forfeited assets may be disbursed to participating state
and local law enforcement agencies.



                                                                                                 10

Exhibit 7: Equitable Sharing Disbursements to State and Local Law
         Enforcement Agencies in the DEA Atlanta Division
                    (during FYs 2001 Through 2011)
                             Amount           Amount from
                                                                Percent from
                          Disbursed to          Adoptive
        State                                                     Adoptive
                              State              Assets
                                                                   Assets
                          (in millions)       (in millions)
 Georgia                      $204                $53               26%
 North Carolina               $128                $74               58%
 South Carolina                $45                $18               40%
 Tennessee                     $57                 $5                9%
 Total                        $434               $150               35%
Source: OIG analysis of the DOJ’s Consolidated Assets Tracking System data

    The results of our audit are presented in the following section.




                                        11

                 FINDINGS AND RECOMMENDATIONS

      We found that the DEA generally complied with the internal controls for
      adoptive seizures that we tested. The DEA’s process was designed to
      ensure compliance with laws and regulations except that the process
      did not require the DEA to make and preserve records of adoption
      requests that it denied. We also found that the form published by the
      DOJ Criminal Division and used by state and local law enforcement
      agencies to request a federal adoption does not ensure that DEA
      managers have sufficient information about whether the state and local
      law enforcement agencies followed existing state forfeiture laws prior to
      the request for a federal adoption. In addition, we found a significant
      number of pending requests in CATS, including $2.6 million in equitable
      sharing requests (32 requests) submitted to the DEA Atlanta Division,
      had been in a pending status for 4 to 10 years after the assets were
      seized. Yet further inspection of the requests relating to the Atlanta
      Division determined that the CATS records for some of those requests
      had not been updated and the requests were no longer actually
      pending. Based on these findings, we recommend that the DEA
      implement procedures to create and maintain records of adoption
      requests that it denies. We also recommend that the DEA coordinate
      with the Criminal Division to modify the adoption request form. Finally,
      we recommend that the DEA coordinate with JMD’s AFMS regarding the
      need for a system to: (1) identify equitable sharing requests pending
      for more than 6 months after forfeiture and disposal actions are
      completed, and (2) ensure that the appropriate DOJ component
      updates CATS as necessary for each pending request.

The DEA’s Adoptive Seizures Process

      The DEA has implemented a system of internal controls for adopting
seized assets from state and local law enforcement agencies and processing
the seized assets under federal forfeiture law. 14

      The DEA Agents Manual establishes the following requirements:

   •	 State and local law enforcement agencies have 30 days from the date
      an asset is seized to request a federal adoption (Test 2, page 17). If
      the request for adoption is beyond the 30-day time period, waivers of
      the 30-day rule may be approved where the state or local agency

      14	
          We designed audit test questions for what we consider to be the most important of
the DEA’s internal controls described below. The test question numbers are shown in
parentheses.

                                            12

       requesting adoption can demonstrate exigent circumstances justifying
       the delay. Requests for waivers must be submitted by the requesting
       agency in writing, explaining the basis for the delay. The Agents
       Manual does not state whether the DEA may verbally approve a waiver
       or whether the approval must be in writing.

      According to the Agents Manual, in deciding whether to “adopt” a
seizure made by a state or local law enforcement agency, the DEA Special
Agent in Charge, Assistant Special Agent in Charge, Resident Agent in
Charge, or Group Supervisor (not below the GS-14 level) should take into
consideration whether:

   •	 state forfeiture law allows the transfer of the asset to the federal 

      government,


   •	 state law or procedures are inadequate or forfeiture experience is

      lacking in the state system, 15


   •	 the appropriate state or local prosecuting official has reviewed the case
      and declined to initiate forfeiture proceedings, (Test 1, page 15)

   •	 a "significant amount" (that is, an amount sufficient to warrant federal
      prosecution) of drugs are involved, and

   •	 the government is likely to be able to satisfy its requisite burden of
      proof that the asset is subject to forfeiture (Test 3 and 4, page 17).

       With regard to whether the government is likely to be able to satisfy its
burden of proof, the Agents Manual states that these DEA officials may deem
this consideration satisfied when any of the following factors are present:
(1) the seizure is based on a federal or state judicial warrant, (2) an arrest
was made for a felony violation of the Controlled Substances Act or an
equivalent state felony charge that would be a felony if pursued under federal
law, or (3) drugs or other contraband associated with a federal felony drug
offense were also confiscated at the time of the seizure. If none of these
three factors are present, the adoption request forms must be sent to DEA
Headquarters within 5 working days from the date of the adoption request.
DEA legal staff then review the request to determine whether other factors
surrounding the seizure are sufficient to satisfy the DEA’s burden of proof in

       15
          Forfeiture experience refers to the level of training and experience needed to
determine whether the asset was seized based on sufficient probable cause and familiarity
with state procedures for forfeiting the assets.

                                            13

showing that the asset is subject to forfeiture and for approval of the
adoption request.

       DEA Headquarters must notify interested parties in writing within 90
days from the date the asset was seized about its intent to proceed with
forfeiture actions (Test 5, page 18). 16 In addition, pursuant to 44 U.S.C.
§ 3101, the Department must make and preserve records containing
adequate and proper documentation of its transactions and decisions.

      Although we assessed these controls and found that the DEA’s adoptive
seizure process was designed to ensure compliance with laws and
regulations, we also found that the DEA’s internal control process did not
require that it retain records of adoption requests that it denied.

      Specifically, DEA officials told us that they often receive adoption
requests from state and local law enforcement agencies by telephone, but
those requests are denied because of insufficient probable cause or because
the value of the asset does not meet the minimum threshold for adoption.
However, the DEA does not document the details about these adoption
requests or the reasons for the denials. Without these records, we were
unable to assess the DEA’s decisions pertaining to these adoptive seizure
requests.

      In light of the DEA’s statutory obligation to make and preserve records
containing adequate and proper documentation of its transactions and
decisions and because the DEA’s not doing so precluded our review of its
handling of some adoptive seizure requests, we recommend that the DEA
implement procedures to create and maintain records relating to all adoption
requests, including those that are denied. A record of each denied request
could consist of an email summarizing the request and the reasons for the
denial.




       16
          Interested parties are those who appear to have an interest in the seized property.
The DEA has established timeframes for completing various forms and steps in the seizure
process in order to meet this 90-day requirement.



                                             14

The DEA’s Adoptive Seizures Process Testing

       We also assessed whether the DEA had properly implemented its
adoptive seizure process to ensure compliance with the DEA’s internal control
policies for adoptive seizures by testing whether the DEA followed those
policies. We performed detailed audit testing on a sample of 63 seized assets
adopted by the DEA’s Atlanta Division for forfeiture through the Asset
Forfeiture Program. The adoptive assets we tested were seized in Georgia,
South Carolina, North Carolina, and Tennessee. 17 Our audit objective, scope,
and methodology are described in more detail in Appendix I.

       We found that 62 of 63 adoption requests we tested were properly
approved as adoptive seizures by DEA managers at the Atlanta Division or by
DEA Headquarters legal staff, and the DEA gave public notice within 90 days
after seizure of its intent to proceed with forfeiture. 18 For 62 of 63 adopted
assets, the state and local law enforcement agencies requested the adoption
within 30 days from the date of seizure. For one adoption request, the DEA
waived the 30-day requirement in writing.

      However, we also found that the form published by the DOJ Criminal
Division and used by state and local law enforcement agencies to request a
federal adoption does not ensure that DEA managers have sufficient
information about whether a state or local prosecutor declined to proceed
with forfeiture under state law prior to the request for a federal adoption. 19

       Details of each of our audit tests are explained below.

Test 1: Did a state or local prosecuting official review the case and decline to
initiate forfeiture proceedings?

      According to the DEA Agents Manual, before deciding whether to adopt
a seizure made by a state or local law enforcement agency, DEA managers
should consider whether the state or local prosecutor has reviewed the case

       17
          The DEA Atlanta Division has geographic responsibility for Georgia, South Carolina,
North Carolina, and Tennessee. North Carolina does not have state civil asset forfeiture
laws. Generally, under North Carolina forfeiture law, the property owner must be convicted
of a crime before the asset can be forfeited to the government.
       18
          One seized asset we examined should not have been recorded in CATS as an
adoptive seizure because the DEA was involved in the events that led to seizure.
       19
          Our audit sampling methodology, described in detail in Appendix I, does not permit
us to project our audit test results to all adoptive seizures.



                                             15

and declined to initiate forfeiture proceedings under state law. 20 The
adoption request form requires the state or local law enforcement agency
making the adoption request to provide the following information: 21

        Has a state or local prosecutor declined to proceed with forfeiture under

        state law? ( ) Yes ( ) No


        Provide the name of the prosecutor and declination date.
        ______________________            ________________
        Name	                             Date

      On 23 of the 63 adoption request forms we examined, the law
enforcement agency answered “No”– a state or local prosecutor did not
decline to proceed with forfeiture under state law. However, this question is
not applicable because the seizures we tested were seized in states that did
not require the seizing law enforcement agency to check with a state or local
prosecutor before seeking a federal adoption. Staff at the DEA Atlanta
Division told us that the law enforcement agencies that completed the
adoption request form answered “no” because either:

   •	 the state or local prosecutor did not decline to proceed with forfeiture, 22

   •	 there was not a sufficient amount of drugs associated with the seized
      asset to warrant presenting the case for forfeiture under state law, or

   •	 the state or local prosecutor only handles cases involving criminal
      prosecution. Most of the adopted assets we tested were forfeited under
      federal administrative procedures or federal civil statutes.




        20
           At the time of our audit, 13 states had laws requiring the seizing law enforcement
agency to check with the state or local prosecutor before seeking a federal adoption of the
seized assets. The 63 adopted seizures we tested were seized in states that did not have
this requirement.
        21
             See Appendix II for a copy of the Request for Adoption of State and Local Seizure
Form.
        22
           We believe this could also indicate that the case was not presented, or state law
did not require that the case be presented, to a prosecutor to decide whether to proceed with
forfeiture under state law, which was not required in the states where the assets were
seized.



                                               16

      We concluded that the adoption request form should be revised so that
the question can be answered “Yes,” “No,” or “Not Applicable” and that a line
should be added to capture the reason for the answer. 23

Test 2: Did the state or local law enforcement agency request the adoption
within 30 calendar days from the date of seizure?

     We found that for 62 of 63 adopted assets, the law enforcement
agencies requested the adoption within 30 days from the date of seizure. For
one adoption request, the DEA waived the 30-day requirement in writing.

Tests 3 and 4: Did local DEA managers consider whether the government is
likely to be able to satisfy its requisite burden of proof that the asset is
subject to forfeiture?

      As discussed above, according to the DEA Agents Manual, the DEA
should consider whether the government is likely to be able to satisfy the
requisite burden of proof that the asset is subject to forfeiture before
approving a request for adoption.

       We tested 63 adopted assets and found that the 22 adoption request
forms approved by managers at the DEA’s Atlanta Division were based on at
least one of the three factors identified in the DEA Agents Manual as
sufficient for such approvals. 24 The remaining 41 adoption requests were
approved by DEA Headquarters staff. We did not test whether DEA
Headquarters’ approvals were based on sufficient probable cause for making
the seizure because our review was focused on field office operations and we
did not test DEA Headquarters operations.

       23
           Subsequent to the issuance of our draft audit report, an AFMLS official told us that,
in the view of the AFMLS, a “Not Applicable” choice should not be provided because
communication should take place with local prosecutors to ensure proper coordination. The
AFMLS official agreed that a line should be added to the form requiring an explanation any
time a “No” answer is selected.
       24
           As noted above, those factors are: (1) the seizure was based on a federal or state
judicial seizure warrant; (2) an arrest was made for a felony violation of the Controlled
Substances Act or an equivalent state felony charge that would be a felony if pursued under
federal law; and (3) drugs or other contraband associated with a federal felony drug offense
were also confiscated at the time of seizure.

       We reviewed the police reports and other supporting documentation to determine
whether there was a record that probable cause had been established in the manner
prescribed by the DEA Agents Manual, but we did not try to make a determination of whether
the reasons recorded as establishing probable cause were legally sufficient.



                                              17

Test 5: Did the DEA give notice of its intent to proceed with forfeiture within
90 calendar days from the date of seizure? 25

      We consider this internal control to be one of the most important
internal controls in the adoptive seizure and forfeiture process. If the DEA
does not meet this 90-day requirement, the asset must be returned to the
owner. For all 63 assets we tested, the DEA gave public notice within 90
calendar days from the date of seizure of its intent to proceed with forfeiture
actions. 26

Pending Equitable Sharing Requests

       To participate in the equitable sharing program, state and local law
enforcement agencies must be in compliance with equitable sharing
participation requirements and must submit annual reports to the Criminal
Division’s AFMLS. To receive a share of the proceeds from federally forfeited
assets, the law enforcement agency must submit an Application for Transfer
of Federally Forfeited Property (DOJ Form DAG-71), including the sharing
percentage requested.

      Equitable sharing decisions are made by either the investigative
agency, such as the DEA, the USAO, or the Deputy Attorney General. In
administrative forfeitures of less than $1 million, the investigative agency
determines the amount to be shared. In judicial forfeitures of less than
$1 million, the U.S. Attorney determines the amount to be shared. In
administrative and judicial forfeitures of $1 million or more the Deputy
Attorney General determines the appropriate equitable share. 27

      As noted in the Guide to Equitable Sharing for State and Local Law
Enforcement Agencies, forfeitures, like all legal proceedings, take time, and

       25
           The DEA must, within 90 calendar days from the date of seizure (or 60 calendar
days in joint seizure cases), send a Notice of Seizure to the owner and all interested parties
by certified mail and through advertisement in a nationwide publication.
       26
           During our testing of the adoptive seizures, we identified one seized asset that was
incorrectly recorded in CATS as a joint seizure. The CATS record was incorrect because
documentation maintained by the DEA showed that the seizure was the result of a joint
investigation between the DEA and the law enforcement agency that made the seizure. For
joint seizures, the DEA has 60 calendar days to complete the noticing requirement. The DEA
notified interested parties within 40 days from the date of seizure.
       27
          The Deputy Attorney General has delegated this authority to the Assistant Attorney
General of the Criminal Division in cases where the seizing agency, the U.S. Attorney, and
the Criminal Division’s AFMLS agree on the allocation of the forfeited property.



                                              18

equitable sharing can only occur after the federal forfeiture process has been
completed, the property has been disposed of, and a final sharing decision
has been made. After these actions are completed, the USMS, as the
custodian of seized and forfeited assets, transfers the equitable sharing
payments to the law enforcement agencies. We completed analysis of all
equitable sharing requests for FY 2001 through FY 2011 and found that 96
percent of equitable sharing requests were completed in 4 years or less. 28

      To better understand the 4 percent of equitable sharing requests not
completed in 4 years, we analyzed the CATS data as of October 2011 and
found that the data contained 9,035 equitable sharing requests totaling an
estimated $318.8 million that had been in a pending status for 4 to 10
years. 29

      Exhibit 8 shows the equitable sharing requests for adoptive and joint
seizures processed by the DEA and other federal agencies that have been
pending over 4 years.




       28
           For judicial forfeitures (civil and criminal), 87 percent of the equitable sharing
requests were completed within 4 years. For administrative forfeitures, 99 percent of the
equitable sharing requests were completed within 4 years. For all forfeitures, 96 percent of
the equitable sharing requests were completed within 4 years. The OIG analyzed requests
pending longer than 4 years because they represent the oldest pending requests in our data
sample. We do not intend to imply that all requests pending for less than 4 years have been
or will necessarily be handled in a timely manner.
       29
           Pending equitable sharing requests are only an estimate because asset disposal
costs and claims against the asset may reduce the amount of proceeds available for
distribution. Also, according to CATS, 6,453 of the 9,035 pending equitable sharing requests
(or an estimated $229,085,650 of $318,804,219) pertained to assets that had been forfeited
to the United States Government.



                                             19

   Exhibit 8: Estimated Equitable Sharing Requests for Adoptive and

                  Joint Seizures Processed by the DEA

  and Other Federal Agencies that Have Been Pending Over 4 Years 30

                    Adoptive Seizures                   Joint Seizures
  Fiscal
 Year of                          Other                              Other               Total
 Seizure           DEA           Federal             DEA            Federal
                                Agencies                           Agencies
                 $3,166,690        $247,433        $3,736,649       $11,096,700      $18,247,472
  2001
                 86 requests     21 requests      396 requests      766 requests   1,269 requests
                 $1,313,936         $48,708        $2,648,932       $11,729,319      $15,740,895
  2002
                 62 requests      7 requests      847 requests      325 requests   1,241 requests
                   $291,566        $139,931        $3,272,088       $36,050,878      $39,754,463
  2003
                 15 requests     14 requests      373 requests      444 requests     846 requests
                   $114,168        $312,074        $2,660,544       $12,680,828      $15,767,614
  2004
                 18 requests     12 requests      356 requests      275 requests     661 requests
                   $249,296        $181,194       $20,702,022       $69,423,556      $90,556,068
  2005
                 32 requests     12 requests      660 requests      619 requests   1,323 requests
                 $2,263,436      $1,106,959       $11,749,539       $31,544,151      $46,664,085
  2006
                 83 requests     28 requests      812 requests      471 requests   1,394 requests
                 $1,609,728        $209,633       $48,732,539       $41,521,721      $92,073,621
  2007
                 67 requests     26 requests    1,502 requests      706 requests   2,301 requests
                $9,008,820      $2,245,932       $93,502,313      $214,047,153      $318,804,218
  Total
               363 requests    120 requests    4,946 requests    3,606 requests    9,035 requests
Source: DOJ’s Consolidated Assets Tracking System

      At the DEA Atlanta Division, we identified $2.6 million in equitable
sharing requests (32 requests) associated with adoptive assets seized during
FYs 2001 through 2007 that have been pending for over 4 years. 31 As of
October 2011, these equitable sharing requests were still pending. Exhibit 9
shows the amount, the number of requests, and the reasons the requests
were still pending. 32




          30
          The amount of pending equitable sharing requests may be different than the
amount disbursed because equitable sharing funds available for disbursements are based on
the net proceeds after forfeiture. Net proceeds take into account any valid claims against
the assets, payments to victims, federal case-related expenses, and any property
management and disposal costs. Also, federal law mandates that sharing is discretionary.
Any equitable sharing payments of less than $50 scheduled for disbursement are
“extinguished,” and the funds remain in the Assets Forfeiture Fund.
          31
            The equitable sharing requests we examined at the DEA Atlanta Division were
selected from the CATS data as of February 12, 2011. In October 2011, we updated our
CATS data through FY 2011. At that time, 32 of the equitable sharing requests we examined
were still in a pending status.
          32
           Eleven of the requests were also pending awaiting a sharing decision by the
investigative agency (1 request) or the U.S. Attorney’s Office (10 requests).

                                               20

            Exhibit 9: Estimated Value and Number of Equitable Sharing

               Requests Pending Over 4 Years as of October 4, 2011

                                  (DEA Atlanta Division - Adoptive Seizures)

                                               Year Asset was Seized
   Current             FY           FY            FY        FY      FY     FY           FY
                                                                                                    Total
   Status             2001         2002          2003      2004   2005    2006         2007
 Pending.
 Agency
 was not in
 compliance            $287       $40,464                                 $7,616                   $48,367
 with the            1 request   10 requests                             1 request                12 requests
 Asset
 Forfeiture
 Program.
 Pending.
 Agency is
 suspended
 from the
 equitable          $1,624,004    $672,650     $270,102                               $8,399      $2,575,156
 sharing             1 request    9 requests   6 requests                            1 request    17 requests
 program
 and all
 sharing is
 on hold.
                                                                                                  $2,623,523
 Subtotal
                                                                                                  29 requests
 Pending.
 Forfeiture                                                                            $8,260       $8,260
 actions not                                                                         2 requests   2 requests
 completed.
 Pending.
 There are
                      $4,160                                                                        $4,160
 no                  1 request                                                                     1 request
 proceeds
 to share.
                    $1,628,451    $713,115     $270,102                   $7,616      $16,659     $2,635,943
    Total           3 requests   19 requests   6 requests                1 request   3 requests   32 requests
Source: DOJ’s Consolidated Assets Tracking System

          Most of these equitable sharing requests (29 of the 32 requests,
    accounting for all but $12,000 of the requested funds) were pending because
    the requesting law enforcement agencies were not in compliance with the
    equitable sharing program (9 agencies, 12 sharing requests) or equitable
    sharing was on hold because an agency was suspended from the program
    and was not eligible to receive equitable sharing funds (2 agencies, 17
    sharing requests). 33 Two of the 32 sharing requests totaling $8,260 were

               33
               Fourteen pending equitable sharing requests are from a law enforcement agency
    that is suspended from the Asset Forfeiture Program and is currently not eligible to submit
    equitable sharing requests or receive the funds. Three other equitable sharing requests are
    from an agency that participated in the seizures with the suspended agency. Equitable
    sharing is on hold for all 17 requests.



                                                            21

pending because forfeiture actions had not been completed and 1 of 32
equitable sharing requests for $4,160 was pending because there were no
proceeds to share. 34

      Before the status of these pending requests can be updated, one or
more of the following actions must be completed: (1) the requesting law
enforcement agencies must submit a written certification to the AFMLS that
they will comply with the equitable sharing program requirements; (2) the
DEA or the USAO must complete the relevant forfeiture actions; (3) the DEA
or the USAO must approve the equitable sharing request; or (4) the USMS
must update the CATS record for the seized asset indicating that there are no
proceeds available for sharing. 35

       We discussed the pending equitable sharing requests issue with the
Department’s Criminal Division. The Assistant Deputy Chief of the AFMLS,
which monitors law enforcement agencies’ compliance with equitable sharing
participation requirements, told us that the equitable sharing funds
associated with the forfeited assets cannot be put to use for law enforcement
purposes until they are paid. These pending requests represent millions of
dollars that are not being used to control and prevent crime.

       The Assistant Deputy Chief, AMFLS, also told us that most law
enforcement agencies considered to be out of compliance with the equitable
sharing program are in that condition because the agency has not submitted
its required annual certification report to the AFMLS. 36 The AFMLS official
also told us that at any one time there may be hundreds of agencies that are
not in compliance, but within about 30 days the agencies submit the reports
and are taken off the non-compliance list and are eligible to receive

       34
            For the forfeited asset with no proceeds to share, a Justice Management Division
official told us that the USMS did not complete a “Rejected – No proceeds” memo to
complete the equitable sharing process.
       35
           We note that the DEA appears to have taken steps to resolve some of these
pending cases. Specifically, we noted that the DEA’s seized asset files contained letters
notifying the non-compliant law enforcement agencies that their equitable sharing requests
were pending because they were not in compliance with the equitable sharing program.
       36
            For an agency to remain in compliance, it must submit the Equitable Sharing
Agreement and Certification Form annually, as required by the Guide to Equitable Sharing for
State and Local Law Enforcement Agencies. The agreement and certification form reports
the amount of equitable sharing funds an agency received and expended, by category, in the
prior fiscal year. Failure to file the form within 60 days of the end of the agency’s fiscal year
results in an agency becoming non-compliant and unable to receive additional equitable
sharing until the required paperwork is properly submitted.



                                               22

payment. 37 The AFMLS official stated that the equitable sharing requests
that were pending because of non-compliance probably should have been
“extinguished,” meaning a decision was made that a previously approved
equitable sharing request would not be paid. When a request is
extinguished, the asset is still forfeited, but the funds remain in the Asset
Forfeiture Fund. However, the AFMLS official told us that the CATS records
may be incorrect because of timing differences between the equitable sharing
payment date and the dates the agencies were in or out of compliance with
the sharing program or a backlog in the payments process. Consequently,
these pending requests may have been paid, but the CATS records were not
updated.

      The Assistant Deputy Chief, AFMLS, told us that investigative agencies
should have a process to identify equitable sharing requests that are in
pending status for more than 6 months after forfeiture actions have been
completed and, if needed, update the CATS records.

       During discussion of our results regarding pending assets, DEA officials
told us that a large number of DEA assets shown as pending in CATS cannot
be updated by the DEA because other DOJ components must take actions
and update the CATS records. For example, a litigating component may need
to update the status of civil or criminal actions pertaining to an asset. DEA
staff do not have the capability to update CATS for another component’s
actions.

Conclusion

      We found that the DEA generally complied with the internal controls for
adoptive seizures that we tested. The DEA’s adoptive seizure process was
designed to ensure compliance with laws and regulations, except that the
process did not require that the DEA to make and preserve records of
adoption requests that were denied. We also found that the adoption request
form published by the Criminal Division and used by state and local law
enforcement agencies to request a federal adoption should be revised to
provide DEA managers with better information pertaining to whether the

       37
          The Assistant Deputy Chief of the Criminal Division’s AFMLS said that although the
Division maintains the date of the most current change to each law enforcement agency’s
compliance status, it does not maintain historical information about the dates that law
enforcement agencies were in and out of compliance with the equitable sharing program. If
law enforcement agencies fail to become compliant within one year, their previously
approved equitable sharing requests may be “extinguished” and the corresponding money
may remain in the Assets Forfeiture Fund.



                                            23

state or local law enforcement agency making the adoption request checked
with a state or local prosecutor, if required, before seeking a federal
adoption. We also found that as of October 2011 there were 9,035 equitable
sharing requests totaling an estimated $318.8 million that were still in a
pending status for 4 to 10 years after the assets were seized. 38 This
represents a significant amount of resources that are not being used to
control and prevent crime. The pending requests were from all federal
agencies that participate in the Asset Forfeiture Program. At the DEA Atlanta
Division, 29 of those requests totaling $2.6 million were still pending because
the requesting law enforcement agency was not in compliance with or was
suspended from the equitable sharing program.

      An official from the Criminal Division told us that the funds associated
with pending equitable sharing requests cannot be put to use for law
enforcement purposes until they are disbursed to the law enforcement
agencies. The DEA needs to coordinate with JMD’s AFMS to identify long-
pending requests and ensure CATS is updated.

Recommendations

We recommend that the DEA:

   1. Implement procedures to create and maintain records of adoption
      requests that were denied. Those records could consist of emails
      between the DEA and the law enforcement agency requesting the
      adoption with all relevant details about the seizures and the reasons
      the adoption requests were denied.

   2. Coordinate with the Criminal Division, AFMLS, to modify the Request for
      Adoption of State or Local Seizure form so that the question “Has a
      state or local prosecutor declined the case?” can only be answered
      “Yes,” “No” or “Not Applicable,” and add a line to capture the reason for
      the response.

   3. Coordinate with JMD’s AFMS regarding the need for a system to:
      (1) identify equitable sharing requests pending for more than 6 months
      after forfeiture and disposal actions are completed, and (2) ensure that
      the appropriate DOJ component updates CATS as necessary for each
      pending request.


      38
          According to CATS, 6,453 of the 9,035 pending equitable sharing requests (or an
estimated $229,085,650 of $318,804,219) pertained to assets that had been forfeited to the
United States Government.

                                           24

                   STATEMENT ON COMPLIANCE WITH

                       LAWS AND REGULATIONS


      As required by Government Auditing Standards, we tested a sample of
assets seized by state and local law enforcement agencies and adopted by
the DEA for processing under federal forfeiture law through the Department’s
Asset Forfeiture Program. 39 We completed these tests to obtain reasonable
assurance about the DEA’s compliance with laws and regulations that, in our
judgment if not complied with, could have a material effect of the DEA’s and
Department’s operations. In planning our audit, we identified the following
laws and regulations that were significant within the context of our audit
objective:

       •	 Federal seizure and forfeiture laws;

       •	 State seizure and forfeiture laws;

       •	 The DEA Agents Manual;

       •	 Guide to Equitable Sharing for State and Local Law Enforcement
          Agencies, April 2009;

       •	 The Attorney General’s Guidelines on Seized and Forfeited Property,
          July 1990 (amended November 2005); and

       •	 Asset Forfeiture Policy Manual (published by the Department).

      Except for any instances of noncompliance identified in the Findings
and Recommendations section of this report, we did not identify any other
instances of noncompliance with the laws and guidelines we reviewed.




       39
           Our methodology for selecting a sample of seized assets for testing is described in
detail in Appendix I, Audit Objectives, Scope, and Methodology.

                                              25

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objective. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations of
laws and regulations. Our assessment of the DEA’s internal controls was not
made for the purpose of providing assurance on its internal control structure
as a whole. The DEA’s management is responsible for the establishment and
maintenance of internal controls.

     As noted in our report, the DEA needs to implement internal control
procedures to create and maintain documentation of adoption requests that
were denied.

       Because we are not expressing an opinion on the DEA’s internal control
structure as a whole, this statement is intended solely for the information and
use of the auditee. This restriction is not intended to limit the distribution of
this report, which is a matter of public record.




                                       26

                                                                      APPENDIX I

           AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

     The objective of this audit was to assess the design and
implementation of the Drug Enforcement Administration’s adoptive seizure
process.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objective.

      To assess the design and implementation of the DEA’s adoptive seizure
process, we identified applicable federal and state seizure laws, reviewed the
DEA’s internal controls for adoptive seizures, and interviewed officials at DEA
Headquarters, the Department of Justice’s Criminal Division, the DOJ Justice
Management Division, and at the DEA Division office in Atlanta, Georgia,
where we conducted detailed audit testing. 40 We also tested those internal
controls that we considered significant within the context of our audit
objective.

       We selected the DEA Atlanta Division for testing because within the
DEA’s 21 field divisions the Atlanta Division processed the largest dollar value
of adopted seized assets and testing at that location enabled us to make
efficient use of time and cost resources.

      We obtained the universe of adopted seizures from which we selected
our sample by downloading from the DOJ’s Consolidated Assets Tracking
System (CATS) assets seized from October 1, 2000, through February 12,
2011, and adopted by the DEA for processing under federal forfeiture law. To
compile the universe, we used two datasets with different date ranges for the
seizure dates. One dataset contained the DEA’s adoptive seized assets from
FY 2007 through February 12, 2011 (the date we downloaded the data). In
order to capture adoptive assets with older pending equitable sharing

      40
           We did not interview state and local law enforcement officers.

                                              27

requests, we used a dataset with the DEA’s adoptive seized assets from
seizure date FY 2001 to February 12, 2011.41

       To develop our sampling plan we performed descriptive statistical
analysis on different data variables that included the DEA division offices, the
current value of the seized assets, the number of equitable sharing requests,
equitable sharing requests that were in a pending status, and the dates of
different events associated with the adoptive seizures process.

       Analysis of the adoptive seized assets indicated a wide variation
between the status of requests for equitable sharing and the processing of
different seized assets. To capture the maximum information on several
aspects of the adoptive seizure process, we used multiple criteria to select
our judgmental sample. We employed multiple tests to assess various
aspects of the process from adoption to disbursement of the equitable
sharing proceeds associated with the adoptive seizures. We used the
following information-based criteria to select our sample of adoptive assets
for testing.

   •	 Adoptive seized assets with pending equitable sharing requests

      (FY 2001 through February 12, 2011),


   •	 Adoptive seized assets with equitable sharing requests that were 

      disbursed and equitable sharing requests that were rejected

      (FY 2007 through February 12, 2011),


   •	 Adoptive seized assets with equitable sharing requests that were

      disbursed and equitable sharing requests that were still pending 

      (FY 2007 through February 12, 2011), and


   •	 Adoptive seized asset records with data anomalies such as the date the
      asset was adopted by the DEA is more than 30 days after the date the
      asset was seized (FY 2007 through February 12, 2011).

      Using these criteria, we selected a preliminary sample of 82 seized
assets (with 133 associated equitable sharing requests) adopted by the DEA
Atlanta Division office in Atlanta, Georgia. We performed limited testing on
58 of the 82 sample assets and eliminated those 58 assets from our detailed
audit testing. The results of our preliminary judgmental sample detailed

      41
          In October 2011, we obtained updated CATS records through the end of FY 2011
to capture 11 complete years of historical information on seizures and equitable sharing
requests. The seizures and equitable sharing requests after February 12, 2011, were not
part of our detailed audit testing.

                                           28

testing showed that there were few exceptions for the compliance tests we
conducted.

      After reviewing the preliminary results of our detailed audit testing at
the Atlanta Division office on 24 adoptive assets, we selected another
judgmental sample from the remaining 15 offices within the DEA Atlanta
Division. Our second judgmental sample included 39 adopted assets from
FY 2007 through February 12, 2011. We selected these adoptive assets
randomly from the remaining offices after allocating the sample proportional
to the number of adoptive seizures at the respective offices. Our second
judgmental sample of 39 adoptive assets had 62 requests for a share of the
proceeds and covered DEA field offices in the states of Georgia, North
Carolina, South Carolina, and Tennessee. Our sampling design and
methodology does not permit us to project our audit test results to the
universe of adoptive assets from which we selected our sample.

      Overall, we conducted detailed audit testing on 63 assets seized by
state and local law enforcement agencies and adopted by the DEA Atlanta
Division office in Georgia, North Carolina, South Carolina, and Tennessee for
processing through the DOJ Asset Forfeiture Program.

      For each of the seizures sampled, we interviewed DEA officials and
reviewed documentation from the DEA’s seized asset files to determine the
following:

   •	 If required, did a state or local prosecutor decline to proceed with

      forfeiture under state law?


   •	 Did the state or local law enforcement request DEA approval of the
      adoption within 30 days from the date the asset was seized?

   •	 For adoption requests approved by DEA managers in field offices, was
      one of the sufficient probable cause factors, as defined in the DEA
      Agents Manual, documented in the police report or other
      documentation from the seizing agency?

   •	 If the seizure was not based on sufficient probable cause for DEA
      managers in field offices to approve the adoption request form, was the
      request sent to DEA Headquarters legal staff for review and approval
      within 5 days from the date of the adoption request?

   •	 Did the DEA give notice within 90 days from the date of seizure of its
      intent to proceed with forfeiture?



                                       29

      We also referred to the: (1) Guide to Equitable Sharing for State and
Local Law Enforcement Agencies, (2) The Attorney General’s Guidelines on
Seized and Forfeited Property, (3) the DEA Agents Manual, (4) the Asset
Forfeiture Policy Manual published by the DOJ and (5) the DEA’s training
material on adoptive seizures as needed to complete this audit.




                                     30

                                                                               APPENDIX II

                 REQUEST FOR ADOPTION OF STATE OR
                         LOCAL SEIZURE FORM
                  Request for Adoption of State or Local Seizure


       Federal Use Only                              Request must be submitted to the federal investigative
      Asset Identifier:                               agency within 30 calendar days of state and local
                                                      seizure date unless circumstances merit a waiver.
      Agency Case Number:

      Seizure Date:                                  Federal investigative agency shall review all requests
      Judicial District:                              for adoptions.

      Date Request Received:
                                                     U.S. Marshals Service must be consulted for purposes
                                                      of pre-seizure planning prior to adoption




Name of Requesting State or local Agency:
Contact Person:                                   TelephoneNumber (:           )
Date of Seizure:

Date of Request:

Delay Requested in Processing: Yes (    ) Reason:
No ( )

Criminal Case:

      State (         ) Case #                District Attorney Assigned:
      Federal (      ) Case #                  Assistant U.S. Attorney:

      Was Property Seized Pursuant to State Warrant:          State Forfe iture Action Initiated:

        Yes (       ) Attach Copy      No (       )             Yes (      )          No (      )

If yes, explain circumstances:




                                            31

      Has a State or local prosecutor declined to proceed with forfeiture under State law?

       Yes (   )   No (    )

      Please provide name of state or local prosecutor and declination date:


Name                   	                                            Date


      Has another Federal Agency been con tacted, and declined to proceed with this forfeiture under
       Federal law?    Yes ( )       No (     )


      Have you attached copies of pertinent investigative or arrest reports and copies of any affidavits
       filed in support of a seizure warrant? Yes ( )        No ( )


                      To be Completed by Federal Investigative Agency

      Recommend Adoption: [        ] Adoption is in accord with general and local policy.


      Decline Adoption: [     ] Reason for declination:




Investigative Agency Reviewing Official:



Signature                                                   Date


Immediate Probable Cause Review needed if following factors are not present:


      seizure was based on judicial warrant

      arrest made in connection with seizure

      drugs or other contraband were seized from the person from whom the property was seized

Investigative Agency Headquarters Approval:


Signature	                                                   Date




                                                    32

                                                                                           APPENDIX III

THE DRUG ENFORCEMENT ADMINISTRATION’S RESPONSE
           TO THE DRAFT AUDIT REPORT



                                                      U. S. Department of Justice
                                                     Drug Enforcement Administration




    www.dea.gov                                       Washington, D.C. 20537



                                                       SEP 2 0 2012
    MEMORANPUM

    TO:           Fenis B. Polk
                  Regional Audit Manager
                  Atlanta Regional Audit Office
                  Office of the Inspe<:tor General

    FROM:         KevinM. Foley~#,~/
                  Deputy Chief Inspector
                  Offiu ofTn"peclioM

    SUBJECT:      P EA's Response to the O IG's Draft Report: Audit of the Drug Enforcement
                  Administration '$ Adoptive Seizure Proceu and Status of Related Equitable Slwring
                  Requests

        The Drug Enforcement Administration (DEA) has reviewed the Department of Justice (DOJ),
    Office of the Inspe<:tor General's (010) draft audit report, entitled: Audit of the Drug Enforcement
    Administration's Adaptive Seizure Process and Sta/IU of Related Equitable Sharing Requests, DEA
    acknowledges OIG's efforts in conducting a review ofDEA 's adoptive seizure process of forfeited
    assets under state law or under federal law through the Department's Asset Forfeiture Program.
    DEA is committed to coordination with federal, state, and local law enforcement officials on mutual
    drug enforcement efforts to address drug-related crime and help loca1law enforcement agencies
    confront drug trafficking to ensure that criminal organizations and indi viduals do not benefit from
    illegal activity.

        PEA appreciates that the draft audit report indicates PEA's Adoptive Seizure Program generally
    complied with its internal controls for adoptive seizures. While DEA remains committed to process
    improvements and will work to implement the recommendations made by the OIG, the report
    identifies areas in which coordination and action from other components and the Department is
    "«dol.

       DEA provides the following response to the OIG's recommendations:

       Rece mmendation 1_ Implement procedures to (rute aDd main tain RCords of adoption
       requests tbat were denied. nose ~ords «luld consist of emaUs between tbe DEA and tbe
       law enfor<:ement a,eoC)' requestln, tbe adopdon with aU rekvaDt details about tbe s~i%ures
       and the reasons tbe adoption requests were denied.




                                                         33

Ferris B. Polk, Regional Audit Manager                                                       Page 2


   DEA concurs with the recommendation. DEA will infonn all field offices to maintain records of
   instances in which adoptions were denied. These records will include the date of the request, the
   description of assets seized, and the reason for denial. DEA 's Divisional Asset Removal Group
   Supervisors will be responsible for maintaining and submitting reports of adoption requests that
   were denied quanerl y to the Office of Operations Management, Asset Forfeiture Section.

   RecommeDdatioD 2. Coordioate with the CrimiDal Division, AFMLS. to modify the
   Request for Adoption of State or Local Seizure form so that tbe question "Has a state or
   local prosetutor detlined the case?" CIID only be answered "Yes," "No" or "Not
   Applkable," and add a line to CIIpture the reason for tbe t'Hponse.

   DEA concurs with the recommendation. DEA will coordinate with AFMLS to modify their
   "Request For Adoption Of State And Local Seizure Fonn" requesting that their question "has a
   state or local prosecutor declined to proceed with forfeiture under State law?" be modified to
   allow a "Yes", "No" or "Not Applicable" answer with an added line to capture the reason for the
   response.

   RecommendatioD 3. Coordinate witb JMD's AFMS regarding tbe Deed for a system to: (I)
   ideatity equitable sbariDg requests pendlDg for more than 6 months after forfeiture aDd
   disposal actions are completed, and (2) ensure tbat tbe appropriate DOJ component
   updates CATS In Detessary for each pending request.

   DEA concurs with the recommendation. DEA will coordinate with AFMS in requesting CATS
   system enhancements to identify equitable sharing requests pending for more than 6 months after
   forfeiture, and that the disposal actions are completed/updated in CATS by the DOJ component
   as necessary.

    Documentation detailing DEA's efforts to implement each of the recommendations noted in this
repan will be provided to the OIG on a quanerly basis, until all corrective actions have been
completed. If you have any questions regarding DEA's response to the OIG's recommendations.
please contact the Audit Liaison Team at (202) 307-8200.




                                            34

                                                          APPENDIX IV

               OFFICE OF THE INSPECTOR GENERAL

              ANALYSIS AND SUMMARY OF ACTIONS

                NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General provided a draft of this audit report
to the Drug Enforcement Administration (DEA). The DEA response is
incorporated in Appendix III of this final report. The following provides the
OIG analysis of the response and summary of actions necessary to close the
report.

Recommendation Number:

1.	   Resolved. The DEA concurred with our recommendation to implement
      procedures to create and maintain records of adoption requests that
      were denied. The DEA stated in its response that it will inform all field
      offices to maintain records of instances in which adoptions were denied.
      These records will include the date of the request, the description of
      assets seized, and the reason for denial. DEA's Divisional Asset
      Removal Group Supervisors will be responsible for maintaining and
      submitting quarterly reports of adoption requests that were denied to
      the Office of Operations Management, Asset Forfeiture Section.

      This recommendation can be closed when we receive evidence that the
      DEA implemented procedures to create and maintain records of
      adoption requests that were denied.

2.	   Resolved. The DEA concurred with our recommendation to coordinate
      with the Criminal Division’s Asset Forfeiture and Money Laundering
      Section (AFMLS) to modify the Request for Adoption of State or Local
      Seizure form so that the question “Has a state or local prosecutor
      declined the case?” can only be answered “Yes,” “No” or “Not
      Applicable,” and add a line to capture the reason for the response. The
      DEA stated in its response that it will coordinate with the AFMLS to
      appropriately modify the Request For Adoption of State and Local
      Seizure form. As noted on page 17 of this report, an AFMLS official told
      us that, in the view of the AFMLS, a “Not Applicable” choice should not
      be provided because communication should take place with local
      prosecutors to ensure proper coordination. We believe that this point
      should be resolved through discussion between the DEA and AFMLS.


                                      35

      This recommendation can be closed when we receive evidence the DEA
      has coordinated with AFMLS to modify the Request for Adoption of
      State or Local Seizure form.

3.	   Resolved. The DEA concurred with our recommendation to coordinate
      with the Justice Management Division’s Asset Forfeiture Management
      Staff (AFMS) regarding the need for a system to: (1) identify equitable
      sharing requests pending for more than 6 months after forfeiture and
      disposal actions are completed, and (2) ensure that the appropriate
      DOJ component updates the Consolidated Asset Tracking System
      (CATS) as necessary for each pending request. The DEA stated in its
      response that it will coordinate with AFMS in requesting needed CATS
      enhancements.

      This recommendation can be closed when we receive evidence the DEA
      has coordinated with AFMS to identify long-pending requests and CATS
      enhancements.




                                     36

